  Office of Inspector General
       Audit Report


MANAGEMENT LIMITATIONS MAY HINDER
FAA’S ABILITY TO FULLY IMPLEMENT AND
  ASSESS THE EFFECTIVENESS OF ITS
      RUNWAY SAFETY INITIATIVES
       Federal Aviation Administration

       Report Number: AV-2014-130
      Date Issued: September 25, 2014
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Management Limitations May Hinder                  Date:    September 25, 2014
           FAA’s Ability To Fully Implement and Assess the
           Effectiveness of Its Runway Safety Initiatives
           Federal Aviation Administration
           Report No. AV-2014-130

  From:    Matthew E. Hampton                                      Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           Given the millions of flights in the United States each year, runway safety is a
           critical safety area for the Federal Aviation Administration (FAA) due to the risks
           associated with operating aircraft, vehicles, and pedestrians in a confined space at
           considerably different speeds. Although the U.S. commercial aviation industry is
           experiencing one of the safest periods in its history, several high-profile runway
           safety incidents—known as runway incursions—have occurred. FAA data show
           that from fiscal year 2011 to fiscal year 2013, the most serious runway incursions
           increased by more than 57 percent—from 7 in fiscal year 2011 to 11 in fiscal year
           2013, with a spike up to 18 serious runway incursions in fiscal year 2012. In
           addition, the total number of runway incursions increased by 30 percent—from a
           total of 954 in fiscal year 2011 to 1,241 in fiscal year 2013.

           In April 2013, the Ranking Member of the Committee on Transportation and
           Infrastructure, Subcommittee on Aviation, asked that we examine FAA’s Runway
           Safety Program and actions underway to improve safety. Accordingly, our audit
           objectives were to evaluate FAA’s (1) progress in implementing initiatives to
           prevent runway incursions, and (2) effectiveness in reporting and evaluating
           runway incursions.

           We conducted this review in accordance with generally accepted Government
           auditing standards. Exhibit A provides more details on our scope and
           methodology.
                                                                                                               2


RESULTS IN BRIEF
FAA has made progress implementing initiatives to reduce runway incursions;
however, limitations in FAA’s management and organizational structure for the
Runway Safety Program could hinder further progress. FAA has implemented 8 of
the 11 initiatives in its 2007 Call to Action Plan for Runway Safety, as well as
several other national-level initiatives such as enhanced pilot training. In addition,
FAA began requiring that airports hold Runway Safety Action Team 1 (RSAT)
meetings at least once each fiscal year, which has resulted in many local runway
safety initiatives and improvements. Moreover, we determined that airports that
hold regularly scheduled RSAT meetings have a lower risk for runway incursions.
However, management limitations related to the Runway Safety Group’s
organizational structure and its lack of authority may hinder FAA’s ability to
effectively implement additional runway safety initiatives across the Agency. FAA
began reorganizing the Runway Safety Group in 2011, but nearly 3 years later, it
remains in flux. The office has experienced numerous leadership changes since
2011, in part because FAA has not yet successfully recruited a permanent
manager. Further, in 2001 2 and 2010, 3 we recommended that FAA consider
realigning the Runway Safety Office under the Deputy Administrator, yet the
office remains within FAA’s Air Traffic Organization (ATO). As we noted in our
prior reports, this structure limits the office’s ability to coordinate and provide
oversight for the runway safety efforts of other FAA organizations.

It is too soon to determine the effectiveness of FAA’s new reporting process for
runway incursions because the Agency lacks a baseline for measuring its progress
in improving runway safety. FAA has taken steps in recent years to improve its
reporting and analysis of aviation safety events, such as implementing an Agency-
wide Safety Management System (SMS) that uses data analysis to evaluate
ongoing performance and proactively predict future risk. 4 Additionally, in early
2012, FAA revised the reporting process for runway incursions as well as other
safety related events and now requires air traffic control tower officials to submit
initial reports of potential safety events to quality assurance staff at one of FAA’s
three regional Service Areas for review and classification. Previously, tower
officials were responsible for the initial review and classification. FAA officials
state that these new processes have increased the reporting of runway incursions,
although it is uncertain if this represents an increase in the number of actual
events. Because of the changes to its reporting process and the increased reporting,
it will take several years for FAA to establish a new baseline that will allow it to
fully evaluate whether the runway safety initiatives are having their intended
effect on reducing runway incursions.
1
  RSAT meetings are held to discuss surface movement issues and concerns at a particular airport and to develop a
Runway Safety Action Plan (RSAP) to address those concerns. They include stakeholders from the airport traffic
control tower, airport authority, local users, etc.
2
  Despite Significant Management Focus, Further Actions Are Needed To Reduce Runway Incursions (OIG Report
Number AV-2001-066), June 26, 2001. OIG reports are available through our Web site at http://www.oig.dot.gov/.
3
  Review of FAA’s Call to Action Plan for Runway Safety (OIG Report Number AV-2010-071), July 21, 2010.
4
  Process for Tracking Runway Safety Performance, November 2012.
                                                                                                                   3


We are making several recommendations to improve FAA’s implementation of
runway safety initiatives and reporting of runway safety events.

BACKGROUND
In recent years, FAA has introduced a number of initiatives to reduce serious
runway incursions. 5 These include initiatives from its 2007 Call to Action Plan for
Runway Safety, as well as other more recent efforts across the Agency, such as
those included in its 2011 National Runway Safety Plan.

FAA’s Runway Safety Group tracks all reported runway incursions. In recent
years, the total number of reported runway incursions has increased, even though
overall air traffic levels have declined. Figure 1 illustrates that total runway
incursions have generally trended upward since fiscal year 2009, with a more
dramatic increase of 30 percent between fiscal years 2011 and 2013, from 954 to
1,241. During the same 5-year period, the number of serious runway incursions,
which have a higher risk of collision, does not indicate a consistent trend, having
oscillated from 12 in fiscal year 2009, to 6 in fiscal year 2010, to a peak of 18 in
fiscal year 2012.

Figure 1. Runway Incursions, Fiscal Years 2009 to 2013
    1,400                                                                     18                                 20
    1,300                                                                                                        18
    1,200                                                                                                        16
    1,100         12                                                                               11            14
                                                                                                                 12
    1,000
                                                                                                                 10
      900                              6                   7
                                                                                                                 8
      800                                                                                                        6
      700                                                                                                        4
      600        951                  966                 954                1,150               1,241
                                                                                                                 2
      500                                                                                                        0
               FY 2009             FY 2010          FY 2011         FY 2012          FY 2013
                            Total Runway Incursions         Serious Runway Incursions




Runway incursions are divided into three types:
• Pilot Deviation (PD): An action by a pilot that violates Federal Aviation
  Regulations, such as taxiing an airplane on a runway or taxiway without
  authorization from the air traffic controller. Potential PDs are investigated by
  aviation safety inspectors from FAA’s Office of Flight Standards.

• Operational Incident (OI): An action by an air traffic controller that results in
  either less than the required minimum separation between two or more aircraft,
5
  According to the International Civil Aviation Organization’s (ICAO) definition, adopted by FAA in fiscal year 2008,
a runway incursion is any incident involving an unauthorized aircraft, vehicle, or person on a runway.
                                                                                                             4


    or between an aircraft and obstacles (vehicles, people); or an aircraft landing or
    departing on a closed runway. OIs are reviewed by air traffic officials.

• Vehicle or Pedestrian Deviation (V/PD): Pedestrians or vehicles entering any
  portion of the airport movement areas (runways or taxiways) without
  authorization from air traffic control. Most V/PDs are investigated by the local
  airport authority and FAA’s Office of Airports. 6

As noted in figure 2, PDs accounted for 63 percent of runway incursions in fiscal
year 2012. General Aviation (GA) pilots were responsible for more than 80
percent of the PDs. In addition, OIs accounted for 20 percent of runway incursions
and V/PDs accounted for 17 percent that year.

Figure 2. Runway Incursions by Type and Risk Level, FY 2012
                                                                        Category       Category
                                                                           A              B

                      OIs
                      20%


                                                                     Category
                                                                        D
              V/PDs
               17%                                                                       Category
                                   PDs                                                      C
                                   63%




                Type of Incursion                                    Risk Level of Incursion
Source: FAA

Also as shown in figure 2, in fiscal year 2012, more than 98 percent of reported
runway incursions were classified as Category C and D, which FAA considers low
risk events with a minimal risk of collision between aircraft. To determine the
seriousness of runway safety incidents, runway incursions are evaluated by a FAA
committee consisting of representatives from Flight Standards Service, Air
Traffic, and the Office of Airports. This committee determines the level of risk
associated with each event, with category “A” events being the most severe and
“D” events being the least severe (see table 1).




6
  Those V/PDs that involve a mechanic taxiing an airplane to or from a maintenance facility are investigated by
officials from FAA’s Office of Flight Standards.
                                                                                                               5


Table 1. Runway Incursions Categories Defined
Category                                                Definition

    A         A serious incident in which a collision is narrowly avoided.

              An incident in which separation decreases, and there is a significant potential for collision,
    B
              which may result in a time-critical corrective/evasive response to avoid a collision.

    C         An incident characterized by ample time and/or distance to avoid a collision.

              An incident that meets the definition of Runway Incursion, such as incorrect presence of a
    D         single aircraft/vehicle/person on the protected area of a surface designated for the landing
              and takeoff of aircraft, but with no immediate safety consequences.

Source: FAA


LIMITATIONS IN FAA’S MANAGEMENT AND ORGANIZATIONAL
STRUCTURE MAY HINDER THE PROGRESS OF RUNWAY
SAFETY INITIATIVES
FAA has implemented 8 of the 11 national initiatives defined in the 2007 Call to
Action Plan for Runway Safety, as well as other Agency plans. Likewise,
airport-specific improvements have been implemented as a result of action taken
by local RSATs. However, FAA has made significant management and
organizational changes to its Runway Safety Group during the past 3 years,
diminishing its oversight of runway safety initiatives. In addition, the Runway
Safety Group has significantly reduced local outreach programs. Finally, FAA has
not updated its National Plan for Runway Safety since 2011.

FAA Has Implemented Initiatives To Mitigate Runway Incursions, but
Some Planned Initiatives Have Been Delayed or Cancelled
FAA has developed numerous national-level initiatives to mitigate runway
incursions through its Runway Safety Group and through other FAA lines of
business. For example, FAA is working to identify “hot spots” at the nation’s
airports—problem areas or intersections at an airport where there is an increased
risk of runway incursions, requiring heightened attention by pilots and vehicle
drivers. As of July 2014, FAA has identified hotspots at 270 of 583 airports with
staffed air traffic control towers. FAA will designate an intersection as a hotspot
for reasons such as airport layout; ground traffic flow; markings, signage, or
lighting. For example, the red circle in figure 3 depicts a hotspot at
Atlanta/Hartsfield-Jackson International Airport featuring a difficult intersection
where pilots must execute tight turns and possibly hold short of taxiways while
ensuring that their airplane is sufficiently clear of the active runway.
                                                                                                 6


Figure 3. Map of Hot Spot-4 (HS-4) at Atlanta/Hartsfield –
Jackson International Airport




Source: Atlanta Airport Authority

FAA also has initiatives to improve pilot training on runway safety. The Office of
Aviation Safety (AVS) is responsible for pilot training, certification, and renewal
of pilot credentials through its Flight Standards Service (AFS). According to FAA,
AFS is initiating significant changes to core pilot education, training, testing, and
flight-checking requirements. For example, AFS has updated its Pilots Handbook
of Aeronautical Knowledge (the educational foundation for a pilot’s knowledge)
as well as revised the Practical Test Standards (the guides that examiners use to
test applicants for aviation certificates) to reflect a greater emphasis on runway
safety. During fiscal years 2012 through 2014, AVS will continue to redefine
outreach activities, guidance, training, and the process for checking pilots’
understanding and practical application of runway safety practices and issues
through individual pilot contact and aviation industry collaboration.

In addition, FAA has made progress implementing the initiatives that originated as
a result of the 2007 Call to Action Plan for Runway Safety. Of the 11 initiatives in
the plan, FAA has implemented 8. (See table 2 for a list of the initiatives and their
status.)

Table 2. Status of 2007 Call to Action Plan for Runway Safety
Initiatives
                                              Action                                   Implemented
                                                                                        (Yes / No)

               1. Within 60 days, conduct safety reviews at the airports where wrong
                  runway departures and runway incursions are the greatest concern.         Y
  Short-Term
   Actions




               2. Within 60 days, disseminate information and training across the           Y
                  entire aviation industry.
               3. Within 60 days, accelerate required airport signage and markings          Y
                  improvements at the top 75 airports, ahead of FAA’s June 2008
                  deadline.
                                                                                                                     7


                                                          Action                                        Implemented
                                                                                                         (Yes / No)

                        4. Within 60 days, review cockpit procedures and air traffic control                 Y
                           (ATC) clearance procedures.
                        5. Implement a voluntary self-reporting system for all air traffic                   Y
                           controllers and technicians.
                        1. Accelerate the modernization of the Notices to Airmen (NOTAM)
    Mid-Term Actions




                                                                                                             Y
                           system to digitally communicate key information to pilots.
                                                                                                                 7
                        2. Accelerate the installation of runway status lights used to alert pilots          N
                           of unsafe conditions.

                        3. Implement National Transportation Safety Board and Commercial                     Y
                           Aviation Safety Team recommendations relating to air traffic
                           clearances/phraseology and cross checking runway alignment.
                        1. Deploy moving map cockpit displays that provide the capability to                 N
    Long-Term Actions




                           see other traffic and include conflict alerting.
                        2. Expedite the development of             off-the-shelf,   low-cost   ground        N
                           surveillance for smaller airports.

                        3. Modernize the aeronautical information dissemination program to                   Y
                           permit distribution of graphic information, such as airfield
                           construction diagrams.

Source: FAA

However, three of the mid-term and long-term actions have been delayed, 7 years
after being proposed, or cancelled all together. For example:

• The Runway Status Lights (RWSL) System—The RWSL system controls
  airfield lights that illuminate when it is unsafe for an aircraft or vehicle to
  enter, cross, or take off on a runway (see figure 4). 8 RWSL has shown the
  capability to prevent runway incursions caused by air traffic controllers. For
  example, during an incident at Dallas/Fort Worth International Airport, FAA’s
  analysis showed that the pilot of a taxiing aircraft questioned a runway
  crossing clearance that was issued when the runway status lights were
  illuminated red, indicating that the runway should not be used. In response, the
  controller cancelled the runway crossing clearance and another aircraft’s
  landing clearance, thus avoiding a potentially serious ground incident.




7
  Although FAA did not accelerate the implementation of the RWSL System, the Agency plans to deploy 17 sites for
operational use by 2017.
8
  The RWSL System activates lights based on the motion and speed of the detected traffic. In-pavement light fixtures
allow the lights to be directly visible to pilots and surface vehicle operators.
                                                                                                                              8


       Figure 4. Examples of Runway Status Lights




                         Source: FAA’s Runway Safety Report 2011 – 2012.

       Although this initiative has significant potential to improve runway safety,
       FAA has delayed program completion by 2 years and the program has
       experienced cost growth. As a result, FAA has reduced the number of airports
       where the system will be installed from 23 to 17.

• Moving Map Cockpit Displays—Moving maps are aircraft cockpit displays
       that allow pilots to see and avoid other aircraft moving on the airport surface
       through conflict alerts. FAA officials in ATO Safety and Technical Training
       completed an analysis in May 2013 and determined that the use of electronic
       moving maps significantly mitigated the types of errors that typically occur
       during surface operations. However, moving map cockpit displays rely on
       Automatic Dependent Surveillance Broadcast (ADS-B), a new satellite-based
       system 9 that cannot be implemented at this time, as it will require aircraft to be
       properly equipped. It is unclear when this system will be implemented.

• “Low-Cost” Ground Surveillance Systems (LCGS)—In January 2008, FAA
  initiated a project to explore and evaluate commercially available, low-cost
  ground radar surveillance systems that could be implemented at small- and
  medium-sized airports. This technology would have enhanced air traffic
  controllers’ situational awareness of ground activity during periods of low
  visibility. However, in 2013, FAA’s Joint Resources Council did not approve a
  proposal to implement the LCGS project because the project’s costs
  outweighed its potential benefits.




9
    ADS-B In enables pilots to receive real-time, satellite-based traffic information in the cockpit via a cockpit display.
                                                                                     9


Efforts by Runway Safety Action Teams Have Resulted in Local
Airport Improvements
FAA has also achieved safety improvements through its RSATs, which convene to
discuss concerns at a particular airport and to formulate a Runway Safety Action
Plan to address those concerns. The team includes personnel from the air traffic
control tower, the local airport authority, and local aviation stakeholders, and may
include personnel from other FAA lines of business such as Flight Standards or
the Office of Airports. FAA requires RSAT meetings to be conducted at least once
each fiscal year.

Efforts to identify and address surface safety issues through local and regional
RSAT activities have reduced the risk of runway incursions and resulted in local
airport improvements. In point of fact, FAA’s Runway Safety Office conducted a
study of RSAT effectiveness during the period from 2008 through 2011 10 and
found that airports that hold RSAT meetings have a lower risk of runway
incursions, compared to facilities that do not.

For example, an RSAT meeting led to Lakefront Airport in New Orleans, LA,
using green paint and elevated reflectors to close off sections of parking ramps to
more effectively “funnel” pilots taxiing to the runways and prevent pilots
unfamiliar with the airport from becoming lost. Additionally, Houston Hobby
Airport closed one of its taxiways, because runway incursions had occurred when
pilots missed the taxiway and inadvertently crossed a nearby active runway
without clearance.

Limitations With FAA’s Current Organizational Structure Inhibits
Effective Oversight of Runway Safety
FAA’s Runway Safety Group has a unique mission and challenge within FAA
because it must work with other FAA organizations to implement runway safety
projects. However, it lacks the organizational standing and authority to effectively
align and coordinate runway safety activities across all FAA lines of business.
Currently, FAA’s Runway Safety Group is part of the ATO’s Office of Safety and
Technical Training and is responsible for coordinating and overseeing the Agency-
wide runway safety program. 11

However, implementation of runway safety initiatives often requires actions by
organizations spread across diverse FAA lines of business such as ATO, Aviation
Safety (Flight Standards), and several divisions of the Office of Airports. As such,
the Runway Safety Group’s position within the Air Traffic Safety and Technical
Training office (within the ATO) limits its abilities to oversee efforts in these
other, larger FAA offices, particularly its ability to hold them accountable for


10
     Analysis of RSAT Effectiveness (FAA Runway Safety Office), November 26, 2011.
11
     Guidance for FAA’s Runway Safety Program is in FAA Order 7050.1A.
                                                                                      10


implementing initiatives in a timely and effective manner. Figure 5 shows the
current organizational structure and offices responsible for runway safety.

Figure 5. Organizational Structure of Key FAA Lines of Business
Responsible for Runway Safety
                                           Deputy
                                         Administrator




                     Air Traffic
                                            Office of           Aviation Safety
                    Organization
                                         Airports (ARP)              (AVS)
                       (ATO)

      Air Traffic Safety                    Office of Airport
                              Terminal
       and Technical                           Safety and          Flight Standards
                              Services
           Training                            Standards


               Director for
                  Safety

              Runway Safety
                 Group


Source: FAA

Since 1997, we have reported on the need to improve accountability within FAA’s
Runway Safety Program. In July 2010, we recommended that FAA realign the
Runway Safety Group outside of FAA’s operational lines of business in order to
attain independence from the line of business (ATO) to whom runway safety
officials must report and to facilitate appropriate program oversight. Although
FAA partially concurred with our recommendation, and stated that it would
periodically review its organizational structure, FAA continues to align the
Runway Safety Group within the ATO.

In addition, there has been a lack of sustained leadership for the program, as
reflected by high managerial turnover within the Runway Safety Group since
2011, when FAA downgraded the leading management position from a senior
executive to a group manager as part of a larger reorganization within ATO Safety
and Technical Training. The Group Manager currently reports to the Director of
Safety, rather than directly to the Vice President of Safety and Technical Training.
Since the Runway Safety Group’s senior executive retired in 2011, five managers
have held the position. In fact, in January 2014, the most recent acting Group
Manager accepted another position in the ATO, resulting in the assignment of yet
another acting Group Manager. According to FAA officials, FAA has difficulty
                                                                                                                11


attracting qualified personnel to move to FAA Headquarters to fill the position at
the current organizational level.

Finally, according to senior ATO officials, the role of the Runway Safety Group
has evolved from leading the effort to improve runway safety, to serving as the
Agency’s representative to industry, national, and international stakeholders for
FAA runway safety efforts. ATO’s Office of Safety and Technical Training has
assumed the leadership role that was previously under the purview of the Runway
Safety Office. However, according to FAA staff we interviewed, this vision has
not been effectively communicated to the Runway Safety Group staff, contributing
to confusion and fragmented responsibility among runway safety personnel
located in regional facilities across the country.

The Runway Safety Group Has Reduced Local Outreach Efforts
Among other organizational changes, FAA’s Runway Safety Group recently
reduced its local outreach efforts focused on runway safety. According to local
runway safety officials, outreach at the local and regional level is critical because
general aviation pilot deviations comprise the highest total percentage of overall
runway incursions. While it is difficult to establish a direct relationship, the
decrease in outreach efforts may contribute to the increase in reported runway
incursions.

According to FAA, the Agency reduced outreach in response to a tightened fiscal
environment. Specifically, FAA has reduced the Runway Safety Group’s budget
for non-salary items, such as travel and printed materials, by 27 percent since
2011, and the number of full-time equivalents (FTE) 12 assigned to the office has
decreased from a high of 24 in 2010, to 19 in 2014, a 21 percent decrease. As a
result, the Group has cut back on local outreach efforts. For example, the Runway
Safety Group now seldom assigns representatives to participate in most RSAT
meetings. While local runway safety officials participated in 119 RSAT meetings
in 2009, they only participated in 6 in 2013, a reduction of about 95 percent. FAA
has also decreased the number of regional RSAT meetings that take place at high-
risk airports in each region. Instead, FAA Headquarters officials state they intend
to reach larger audiences in the aviation community by using alternative methods
such as Web-based training. However, the effectiveness of these new outreach
methods is uncertain at this time, and Runway Safety staff we interviewed
expressed concerns about whether they were adequately trained to perform this
new kind of outreach.

To its credit, FAA has slightly increased other outreach efforts through its Flight
Standards Service FAASTeam program, which is separate from the Runway
Safety Group. Launched on October 1, 2006, the FAASTeam program provides
outreach programs to inform general aviation pilots about runway safety. For
12
  The definition of FTE (full time equivalent) is the number of working hours that represents one full-time employee
during a fixed time period, such as one month or one year.
                                                                                                                   12


example, FAASTeams publicize local runway safety issues by posting hot spot
charts, runway safety bulletins, runway safety event notices, and other materials
on its Web site. However, while these teams provide valuable training and
outreach on runway safety issues, it is important to note that the overall level of
outreach remains lower than in previous years. As a result, some pilots and local
aviation stakeholders may not be getting the full benefits of runway safety
information.

FAA LACKS A BASELINE FOR MEASURING ITS
EFFECTIVENESS IN REPORTING AND EVALUATING RUNWAY
INCURSIONS
According to FAA, the 30 percent increase in reported runway incursions from
fiscal year 2011 to fiscal year 2013 was due to increased reporting and improved
reporting processes, and not an increase in actual events. However, FAA has not
yet established a new baseline to measure whether actual runway incursions have
increased. Nor has FAA established metrics by which to analyze the effectiveness
of implemented runway safety initiatives.

In recent years, FAA has taken many steps aimed at increasing the reporting of
safety events such as runway incursions. In 2008, FAA began to implement an
Agency-wide Safety Management System (SMS). 13 The goal of the SMS is to
move FAA from an events-based, reactive approach to aviation safety, to a risk-
based, proactive approach that uses data analysis to evaluate ongoing performance
and predict future risk. A key element of SMS is FAA’s Air Traffic Safety Action
Program (ATSAP), which FAA established in 2010, to encourage controllers to
voluntarily report safety and operational concerns and events with the intent of
capturing all instances that might lead to a breakdown in safety.

In addition, in 2012, FAA initiated a new process for reporting safety events
(including runway incursions) that may improve FAA’s ability to identify and
analyze runway incursions. Under the new process, supervisory officials at local
air traffic control towers began to report suspected runway incursions
electronically. 14 One of the fundamental changes under the new process was
FAA’s decision to move the responsibility for investigating events away from the
air traffic control facilities where events occurred, to one of three ATO Service
Centers. 15 Quality Assurance officials in the Service Centers validate the data and
send the reports to FAA Headquarters for severity categorization. The reports are


13
   Process for Tracking Runway Safety Performance, November 2012.
14
   FAA replaced its previous Air Traffic Quality Assurance (ATQA) reporting database with the Comprehensive
Electronic Data Analysis and Reporting (CEDAR) database for completing safety incident reports.
15
   ATO Service Centers provide support services to the Directors of Operation and their service units in the three
service center locations: Atlanta, Fort Worth and Seattle. The role of the Service Center is to provide shared services
which promote standardization of processes, efficiency and effectiveness for the service units - En Route, Technical
Operations, Terminal, and System Operations.
                                                                                                             13


then sent to the appropriate FAA line of business to be investigated and
adjudicated.

Furthermore, FAA has implemented four new Orders 16 that the ATO expects to
improve the process of collecting safety data, tracking the trends, and evaluating
risks. For example, the Air Traffic Organization Occurrence Reporting policy
places more value on discovering why adverse safety events happen and in
identifying risks, rather than determining who was at fault. This order provides
guidance for processing mandatory ATO air traffic occurrence reports and
identifies what occurrences to report and how to report them. FAA expects that the
Orders will provide the processes to differentiate between increases in the number
of events due to better reporting and an actual deterioration of safety.

As a result of these revisions to its mandatory and voluntary reporting processes,
ATO officials claimed that the increasing trend in reported runway incursions
from 2011 to 2013 was largely due to increased reporting. 17 However, our review
found that the available data are insufficient to validate FAA’s claim, especially
because FAA has not established the necessary metrics to measure its progress.
Moreover, according to FAA officials, there may still be runway incursions that
continue to go unreported. In fact, because of the recent changes in runway
incursion reporting procedures, FAA has no baseline to measure whether runway
incursions have actually increased. In addition, runway safety officials caution that
the number of reported runway incursions is likely to continue to rise as voluntary
reporting increases. As a result, it will likely take several more years to establish a
baseline that will allow the Agency to fully evaluate whether runway safety has
improved. Until then, the true impact of FAA’s improved reporting processes and
the impact of its safety initiatives will remain unclear.

CONCLUSION
Preventing collisions between aircraft, vehicles, and people on runways and
taxiways is a key safety goal for FAA. It is important to reverse the trend of the
recent rise in runway incursions to ensure the safety of the traveling public and
prevent future accidents. FAA’s recent changes to event reporting have been a step
in the right direction to improve safety, but the Agency can take further action to
ensure the Runway Safety Group has adequate resources, an updated annual
runway safety plan, and clear lines of authority. Sustained commitment along with
executive-level attention will be crucial to achieving long-term results in this
important safety area.


16
   FAAJO 7210.632 Air Traffic Organization Occurrence Reporting; FAAJO 7210.633, Air Traffic Organization
Quality Assurance Program; FAAJO 7210.634, Air Traffic Organization Quality Control; FAAJO 7200.20, Voluntary
Safety Reporting Program.
17
   We reviewed why overall Operational Incidents increased from 2009 to 2010 in our 2013 report: FAA’s Efforts to
Track and Mitigate Air Traffic Losses of Separation Are Limited by Data Collection and Implementation Challenges
(OIG Report Number AV-2013-046), February 27, 2013.
                                                                                     14


RECOMMENDATIONS
To improve FAA’s implementation of runway safety initiatives and reporting of
runway safety events, we recommend that FAA:

1. Realign the Runway Safety Group outside of FAA’s operational lines of
   business to ensure the office effectively provides oversight and coordinates
   activities for investigating and mitigating runway incursions.

2. Develop a strategy and timeline to hire a permanent director for the Runway
   Safety Group.

3. Provide written guidance to regional Runway Safety Offices on how to
   conduct effective outreach in a resource-constrained environment.

4. Update the National Runway Safety Plan and identify all national runway
   safety-related initiatives, establishing specific and measurable milestones for
   each initiative.

5. Expedite the development of metrics to determine whether runway incursions
   are actually increasing and to assess the effectiveness of implemented runway
   safety initiatives.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a copy of our draft report on July 30, 2014, and received
its response on August 22, 2014. FAA’s entire response is included in the
appendix to this report. In its response, FAA stated that it generally agreed with
our recommendations, with the exception of recommendation 1. However, FAA
did not provide specific information on its planned actions or completion dates as
requested in our draft report. The Agency stated it will provide a detailed response
to each recommendation at a later date. Therefore, recommendations 2, 3, 4, and 5
will remain open and unresolved.

For recommendation 1, FAA stated that it does not concur because the Agency
believes its current organizational structure is functioning well. However, as we
reported, FAA’s runway safety initiatives span across many different lines of
business throughout the Agency, making it difficult for the Runway Safety Group
to provide effective oversight. As such, aligning the Runway Safety Group outside
of these lines of business would enhance FAA officials’ ability to hold groups
accountable for implementing the initiatives and ensuring that runway safety
remains a priority. This is vital to facilitate continued improvement in runway
safety. Therefore, we request that FAA reconsider its position on this
recommendation.
                                                                                15


Finally, FAA pointed to various actions the Agency has taken to enhance runway
safety. However, FAA still has room for improvement in its efforts to effectively
manage and oversee the implementation of new runway safety initiatives and
runway incursion mitigation strategies in order to continue to enhance the margin
of safety on the nation’s runways.

ACTIONS REQUIRED
We consider all recommendations open and unresolved pending receipt of FAA’s
detailed response to each of our recommendations. We ask that this response
specifically address each recommendation with the actions planned and the date
when those actions will be completed. We also request that FAA reconsider its
position regarding recommendation 1. In accordance with DOT Order 8000.1C,
please provide your written response within 30 days of issuance of this report.

We appreciate the courtesies and cooperation of FAA and NATCA representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-0500 or Bob Romich, Program Director, at (202) 366-6478.

                                        #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                     16


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from May 2013 through July 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

The audit included site visits to FAA Headquarters, 5 out of 9 FAA Regional
Offices, and all 3 Service Area Offices. In addition, we visited 15 airport traffic
control towers and their airport operators out of 583 towered airports. The airport
locations visited were selected based on location, frequency of runway incursions,
and traffic mix; and included both commercial and general aviation. In addition
we interviewed officials from the Aircraft Owners and Pilots Association,
American Airlines, Delta Airlines, and National Air Traffic Controllers
Association. A full list of the air traffic facilities and additional organizations that
we visited or contacted during our audit can be found in exhibit B.

To evaluate FAA’s progress in implementing initiatives to prevent runway
incursions, we interviewed the Director of FAA’s Runway Safety Office to
identify FAA’s initiatives, and we reviewed criteria that outlined FAA’s goals
regarding runway safety improvements. We then determined the status of
initiatives by interviewing the organizations responsible for their implementation;
Air Traffic Organization (ATO) Safety and Technical Training, ATO Terminal
Services, Flight Standards, and Office of Airports. In addition, we reviewed
actions taken at specific airports by identifying initiatives developed through local
RSAT meetings, and interviewed local air traffic, airport, and airline personnel.
Finally, we followed up on the status of FAA actions taken in response to its 2007
Call to Action Plan for Runway Safety.

To evaluate FAA’s effectiveness in reporting and evaluating runway incursions,
we reviewed reporting criteria from FAA Orders 7210.633 and 7210.634. We also
interviewed FAA Headquarters, industry, and field personnel, including those
responsible for reviewing and validating reported runway incursions. Further, we
determined the factors that contributed to the increase in runway incursions from
fiscal years 2011 to 2012, by interviewing FAA national, regional and local
management officials. We also analyzed information at the 15 air traffic facilities
and the three ATO Service Areas that we contacted to identify any other
contributing factors. We obtained runway incursion data from FAA’s national
runway incursion database and compared incursion data from fiscal year 2009 to
fiscal year 2013 to determine the trend of runway incursions.




Exhibit A. Scope and Methodology
                                                                        17


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Organizations
  • Air Traffic Organization (ATO) Safety and Technical Training (including
    the Runway Safety Group and Regional Runway Safety Program
    Managers)
  • ATO – Terminal Services
  • Aviation Safety – Flight Standards Service
  • Office of Airports

FAA Air Traffic Control Towers and Airport Operators
  •   Atlanta Hartsfield-Jackson International, Atlanta, GA
  •   Chicago Midway International, Chicago, IL
  •   Chicago O’Hare International, Chicago, IL
  •   Dallas Fort Worth International, Dallas-Fort Worth, TX
  •   David Wayne Hooks Memorial, Houston, TX
  •   Falcon Field, Mesa, AZ
  •   Galveston Scholes International, Galveston, TX
  •   Las Vegas McCarran International, Las Vegas, NV
  •   Lone Star Executive, Houston, TX
  •   Los Angeles International, Los Angeles, CA
  •   New Orleans Lakefront, New Orleans, LA
  •   North Las Vegas, Las Vegas, NV
  •   Phoenix Deer Valley, Phoenix, AZ
  •   Phoenix-Mesa Gateway, Phoenix, AZ
  •   William P Hobby, Houston, TX

Airlines, Industry Associations, and other Federal Agencies
  •   Aircraft Owners and Pilots Association
  •   American Airlines
  •   Delta Airlines
  •   National Air Traffic Controllers Association




Exhibit B. Organizations Visited or Contacted
                                                           18


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Robert Romich                           Program Director

Christopher Frank                       Project Manager

Kevin Montgomery                        Senior Analyst

Andrew Olsen                            Senior Auditor

Erik Phillips                           Senior Analyst

Audre Azuolas                           Writer/Editor




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                       19




                      Federal Aviation
                      Administration

Memorandum
Date:        August 22, 2014
To:          Matthew E. Hampton, Assistant Inspector General for Aviation Audits
From:        H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:     Federal Aviation Administration’s (FAA) Response to Office of Inspector General
             (OIG) Draft Report: Runway Safety Initiatives


Since 2001, the runway safety initiatives implemented and overseen by the FAA have coincided
with a 57 percent reduction in the number of serious runway incursions. In 2001, 2011, and 2014,
the FAA gave careful consideration to the Office of the Inspector General’s recommendations that
the Runway Safety Program be realigned to the Deputy Administrator based primarily upon the
OIG’s assertion that the program is unique among other FAA safety programs because it requires
coordination with several FAA organizations. As before, the FAA does not agree with this
recommendation, and the significantly improving safety trend supports the Agency’s position that
our current structure is functioning well. Virtually all safety programs require wide coordination
among operational units. We believe that risk management initiatives are most effective when fully
integrated into the operation and aggressively managed by the FAA’s operating units. We continue
to make improvements in the processes and infrastructure needed to manage risk across the
Agency.

Based upon our review, we generally agree with most of the OIG recommendations. We disagree
with some of the report’s assertions, unrelated to the recommendations, because the Agency
believes that they are not supported by data and are based upon hearsay obtained in OIG
interviews.

With regard to the OIG’s draft report, the FAA:

        •   Continues to pursue cross-organizational improvements through the Administrator’s
            Strategic Initiatives and the implementation of an FAA-wide Safety Management
            System

        •   Hired a permanent Group Manager for Runway Safety, Scott R. French. He joins several
            executives directly accountable for the FAA’s Runway Safety performance: the Vice
            President for Safety and Technical Training; the Deputy Vice President for Safety and
            Technical Training; and, the Director for Safety.


Appendix. Agency Comments
                                                                                                 20


     •   Published the National Runway Safety Plan for 2015-2017. With this plan, we reaffirm
         our commitment to approaching runway safety, working together across all FAA
         operational units to achieve our goals. This is the third in a series of 3-year plans that
         began in 2009. All of these are available to the public online at:
         http://www.faa.gov/airports/runway_safety/publications/

     •   Provided written guidance and strategies on how to conduct outreach and other runway
         safety activities in a resource-constrained environment in the 2015-2017 National
         Runway Safety Plan. We also provided outreach toolkits to our Regional Runway Safety
         Program managers, including a template for conducting local Runway Safety Action
         Team meetings. In addition, runway safety promotion products (videos, presentations,
         interactive mobile applications) are available online for outreach activities. These
         resources are available upon request.

The FAA continues to make progress in the development of risk-based metrics. The Agency will
provide a detailed response to each of the OIG recommendations after the publication of the final
report.

We appreciate this opportunity to offer additional perspective on the OIG draft report. Please
contact H. Clayton Foushee at (202) 267-9000 if you have any questions or require additional
information about these comments.




Appendix. Agency Comments
